<html>
<title> - UNITED STATES POLICY IN IRAQ: PUBLIC DIPLOMACY AND PRIVATE POLICY</title>
<body><pre>[Senate Hearing 105-725]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-725


 
   UNITED STATES POLICY IN IRAQ: PUBLIC DIPLOMACY AND PRIVATE POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON NEAR EASTERN AND
                          SOUTH ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 1998

                               __________


 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate



                      U.S. GOVERNMENT PRINTING OFFICE
 50-913 cc                   WASHINGTON : 1998
_______________________________________________________________________
           For sale by the U.S. Government Printing Office, 
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402





                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
CRAIG THOMAS, Wyoming                CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
JOHN ASHCROFT, Missouri              DIANNE FEINSTEIN, California
BILL FRIST, Tennessee                PAUL D. WELLSTONE, Minnesota
SAM BROWNBACK, Kansas
                     James W. Nance, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                 ------                                

          SUBCOMMITTEE ON NEAR EASTERN AND SOUTH ASIAN AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman
GORDON H. SMITH, Oregon              CHARLES S. ROBB, Virginia
ROD GRAMS, Minnesota                 DIANNE FEINSTEIN, California
JESSE HELMS, North Carolina          PAUL D. WELLSTONE, Minnesota
JOHN ASHCROFT, Missouri              PAUL S. SARBANES, Maryland

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Eagleburger, Hon. Lawrence S., Former Secretary of State.........    26
Indyk, Martin S., Assistant Secretary of State for Near Eastern 
  Affairs, Department of State...................................     3
Kirkpatrick, Hon. Jeane J., Senior Fellow, American Enterprise 
  Institute; and Former U.S. Permanent Representative to the 
  United Nations, Washington, D.C................................    18
Murphy, Richard W., Senior Fellow for the Middle East, Council on 
  Foreign Relations..............................................    22
    Prepared statement...........................................    24
Woolsey, Hon. R. James, Former Director, Central Intelligence 
  Agency, Washington, D.C........................................    20

                                 (iii)


   UNITED STATES POLICY IN IRAQ: PUBLIC DIPLOMACY AND PRIVATE POLICY

                              ----------                              


                      WEDNESDAY, SEPTEMBER 9, 1998

                               U.S. Senate,
       Subcommittee on Near Eastern and South Asian
                    Affairs Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:08 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Sam Brownback 
(chairman of the subcommittee) presiding.
    Present: Senators Brownback, Coverdell, Robb, and 
Feinstein.
    Senator Brownback. Thank you, all, for coming. We are 
delighted to have you here and the panel that we have to 
present, both from the administration and the panel to follow, 
about U.S. policy in Iraq: Public policy and private diplomacy. 
I want to thank our witnesses for coming today to discuss a 
very important matter.
    The issues we are facing in Iraq as well as in a number of 
crucial parts of the world is that of whether or not the U.S. 
can live up to its position as the sole world superpower. It is 
an issue of U.S. world leadership. The importance of U.S. 
credibility in the world has never been more important.
    We are in a time when world economies are collapsing, 
terrorism is on the upswing, enormous holes are being poked in 
the world's nonproliferation regime, rogue regimes are building 
and acquiring weapons of mass destruction, and we are facing 
new missile threats from North Korea and Iran, and ethnic 
tensions threaten to explode in a number of different corners 
of the globe.
    At a time when it is crucial that we be able to stand for 
strength and stability and credibility, we are suffering from a 
lack of leadership and credibility in the White House, and an 
apparent policy of transferring responsibility to a weak and 
divided United Nations. U.S. foreign policy at the moment is 
weak and seems oriented more toward appeasement than 
leadership.
    Because of this unfortunate lack of leadership, our enemies 
will continue to test America. The U.S. needs the President to 
exercise the power of the office. We need him to be able to 
pull together international coalitions to help keep the world a 
safer place. We need to have the credibility to give our 
enemies pause. The U.S. word must be its bond. If we make a 
commitment, we must keep it.
    Iraq is but one of the most recent examples of difficulties 
that we are having. Saddam Hussein has shown that he follows 
U.S. domestic policy closely. Both in January and now in 
August, he has timed his refusals to abide by U.N. agreements 
to coincide with high points in the President's domestic 
scandal. U.S. reaction has been tough on talk and weak on 
follow-through. Major Scott Ritter's recent resignation exposed 
U.S. policy on Iraq. And I hope we have a chance to talk about 
that today.
    Unfortunately, challenges to our leadership are not 
restricted to our dealings with Iraq. The world is watching 
whether the United States can live up to its responsibilities 
as the superpower. American credibility is being questioned 
around the globe.
    There have been a number of editorials and articles written 
from around the world regarding U.S. lack of leadership today, 
but perhaps it is best put by the Business Times from 
Singapore. They said, on September 2nd, this:

          It is quite depressing to note that at this critical 
        period in international relations, with some experts 
        warning that the financial crisis in East Asia and 
        Russia could produce a global economic depression as 
        well as new military threats to international security, 
        both the world's only superpower as well as the former 
        cold war era superpower are now being led by people who 
        are unable to advance creative game plans to deal with 
        dangers ahead.

    Our panel today will explore the problems with U.S. Iraqi 
policy and U.S. leadership abroad. We will examine the problems 
with our Iraqi policy--the stated and unstated policy--and what 
America needs to do to recover its global leadership position. 
Our first witness will be the Hon. Martin Indyk, Assistant 
Secretary for Near Eastern Affairs. He has been in front of the 
committee before, and we appreciate him returning again.
    Our second panel will consist of the Hon. James Woolsey, 
former Director of the Central Intelligence Agency; the Hon. 
Lawrence Eagleburger, former Secretary of State; the Hon. 
Richard Murphy, former Assistant Secretary of State for Near 
Eastern and South Asian Affairs, currently with the Council on 
Foreign Relations; and they will be joined by the Hon. Jeane 
Kirkpatrick, the former U.S. permanent Representative to the 
United Nations and currently a Senior Fellow at the American 
Enterprise Institute.
    This is a serious hearing and we have serious matters to 
consider today. There have been a lot of questions raised 
recently, publicly in the media, privately, that have been 
discussed. I look forward to the administration's witness, 
Secretary Indyk, to talk in very direct and frank and candidly 
to us. We have got a lot of tough questions to ask, and we look 
forward to having your response, and for the panel behind you 
to state what the United States should be doing. I will turn to 
the ranking member, Senator Robb.
    Senator Robb. Thank you, Mr. Chairman.
    There is no question that within the jurisdiction of this 
subcommittee we have more challenging and difficult public 
policy questions to deal with than at almost any time in recent 
memory. None of them are easy. We have people, witnesses, who 
have been kind enough to appear before the subcommittee today 
that have expertise in these areas. And I look forward to their 
comments. And I hope that they can help us to discern what 
would be the appropriate response to some of the challenges, in 
addition to highlighting what those challenges are and the 
difficulties that I think all of us would acknowledge that we 
have had in dealing with some of the challenges to date.
    With that, I join you in thanking our witnesses, and look 
forward to hearing first from Secretary Indyk.
    Senator Brownback. Thank you, Senator Robb.
    Senator Coverdell, thank you for joining. Do you have a 
statement to make?
    Senator Coverdell. Just very briefly, Mr. Chairman. I 
appreciate the opportunity to be with you today and to welcome 
this distinguished group of panelists.
    To me, Iraq sort of draws three major issues that are 
growing on the horizon. Those three issues being: Are we indeed 
producing a hollow military as we come to the new century? 
Number two, has the United States effectively embraced what I 
believe is an unchallenged conclusion that terrorism is now a 
component of strategic warfare? And the growing question as to 
the threat from which we have recently heard from the 
congressional commission with regard to the vulnerability of 
the United States to ICBM's.
    And when you look at Iraq and recent events there, it 
touches it all. Which is my distinct interest in hearing from 
the panelists you have assembled here today. And I appreciate 
the opportunity to be with you.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Coverdell.
    Mr. Indyk, thank you for joining us. I know you got caught 
in a traffic jam, but I appreciate you making it up here 
anyway. The floor is yours.

STATEMENT OF MARTIN S. INDYK, ASSISTANT SECRETARY OF STATE FOR 
           NEAR EASTERN AFFAIRS, DEPARTMENT OF STATE

    Mr. Indyk. Thank you very much, Mr. Chairman. I am grateful 
for the opportunity to appear again before your distinguished 
committee.
    I do so with some trepidation, knowing that sitting behind 
me is such a formidable group of experienced former U.S. 
Government officials. And I will do my best to live up to the 
incredible record that they have said in the past.
    In recent weeks, Mr. Chairman, as you know, there have been 
a lot of charges leveled at the administration and at the 
Secretary of State personally for supposedly pursuing a 
duplicitous policy toward Iraq. I welcome the opportunity that 
you have given us to set the record straight. If you will allow 
me, I would like to spend a little time placing on the record 
our version of events.
    As you know, the objective of Operation Desert Storm back 
in 1991 was to roll back Iraq's brutal invasion of Kuwait. As 
President Bush recalls in his new book, the war did not end 
like World War II, with the surrender of a beaten army and the 
punishment of the villainous enemies' leaders. Although 
humiliated and weakened, Saddam Hussein and his military 
survived, and we have been dealing with the consequences ever 
since.
    From the outset, our goal and that of the U.N. Security 
Council has been to deny Iraq the capacity ever again to 
threaten international peace and security. This effort has paid 
dividends. Year by year, Iraqi efforts to conceal its weapons 
of mass destruction programs have been unmasked. In the 
process, the chosen tools of the Security Council, UNSCOM and 
the IAEA have forced the destruction of more Iraqi weapons of 
mass destruction capacity than was destroyed during the entire 
Gulf War.
    Throughout this period, Iraq has tried to undermine 
Security Council unity on the key points of compliance and 
sanctions. At the same time, with our allies, we have 
constrained Iraq's military options through Operations Southern 
and Northern Watch and, when necessary, the reinforcement of 
our military presence in the Gulf. As a result, the military 
threat posed by Iraq has been effectively contained. But that 
threat has by no means been eliminated.
    As long as Baghdad is under its present leadership, we must 
expect that Iraq will seek to reconstitute its weapons of mass 
destruction if given the opportunity. Iraq's goal is to gain 
relief from sanctions while retaining as much as it can of its 
residual weapons of mass destruction programs. To this end, 
Baghdad had repeatedly probed for weaknesses in the Security 
Council's resolve. It has sought to create division among 
Council members. It has tried to portray itself as the victim 
in a confrontation with a run-away UNSCOM being ordered around 
by an arrogant and callous United States.
    To dramatize this charge, Iraq has halted cooperation with 
UNSCOM on three occasions during the past year, most recently 
the beginning of this August. Throughout, we have countered 
Iraq's outrageous propaganda with plain truth. We have backed 
UNSCOM's efforts to expose the contradictions between Iraqi 
declarations and the physical and documentary evidence. We have 
stressed repeatedly the importance of full compliance with 
Security Council resolutions.
    And last spring we threatened the use of force, as we have 
on three separate occasions since the end of the Gulf War if 
Iraq did not permit UNSCOM inspections to resume. And in the 
face of that threat, it did.
    Mr. Chairman, in recent weeks, some have suggested that 
since then, the United States has not done enough to support 
the work of UNSCOM. It has even been suggested that we have 
tried to prevent UNSCOM from discovering the truth about Iraq's 
weapons of mass destruction programs. The people who level 
these charges are undoubtedly well-intentioned. In particular, 
we have nothing but respect for the work of Mr. Scott Ritter. 
We are, after all, on the same side in this process.
    But Mr. Ritter works from a different set of facts. And as 
Chairman Butler told the New York Times today, the testimony he 
gave as to those facts before your committee and the Senate 
Armed Services Committee was, and I quote Chairman Butler, 
often inaccurate in chronology and detail, and was therefore, 
according to Chairman Butler, misleading.
    The administration has to work with a broader set of facts 
than those available to Mr. Ritter. First is the fact that the 
United States has been, by far, the strongest international 
backer of UNSCOM. For years, we have provided indispensable 
technical help, expert personnel, sophisticated equipment, 
vital diplomatic backing, logistics, and other support. And 
nothing has changed in that regard.
    For example, in May of this year, principals of the 
National Security Council instructed the heads of all relevant 
U.S. agencies to issue new directives, ensuring that UNSCOM and 
IAEA inspections would receive high priority support throughout 
our government. The Secretary of State issued that directive to 
State Department officials on June the 23rd of this year.
    On the diplomatic front, we have taken the lead in 
rebutting and disproving Iraq's contentions in disputes with 
UNSCOM before the Security Council. Secretary Cohen, Secretary 
Albright, and the rest of the President's foreign policy team 
have travelled the world, attempting to keep the heat on Iraq, 
in demanding that it cooperate with UNSCOM.
    The suggestion that this administration urged other 
governments not to support UNSCOM turns the truth on its head. 
It is exactly the opposite of what we have been doing.
    A second fact is that, Iraqi intransigence aside, UNSCOM's 
inspection efforts have continued to make important progress 
during the time that we were accused of not supporting UNSCOM's 
inspections. For example, just this summer, UNSCOM was able for 
the first time to conduct inspections of sensitive sites where 
it found new evidence that Iraq had lied about the size of its 
chemical weapons stocks.
    A third fact that we have to take into account is the 
importance of maintaining Security Council and coalition unity 
in dealing with Iraq. There is a very hard-headed reason for 
this: Unless we are prepared unilaterally to send tens of 
thousands of American ground troops into Iraq to remove Saddam 
and destroy Iraq's military infrastructure, we are not going to 
eliminate by force Iraq's ability to conceal and possibly 
reconstitute its weapons of mass destruction.
    If we are not prepared to take such action, we will have to 
rely on the help of others, through sanctions, support for 
inspections, and acceptance of the need to use military strikes 
for limited objectives if necessary. This fact has an influence 
on the tactical decisions we have to make.
    As I suspect the veterans among you, like Senator Robb, 
would agree, there is a great value in any confrontation in 
being able to choose your own timing and terrain. Saddam's 
provocations are designed with political purposes in mind: to 
spark a reaction, to divide the Security Council, to isolate 
the United States, and to diminish support for sanctions. Our 
strategy is to deny Saddam that opportunity and to keep this 
world spotlight not on what we do, but on what Iraq is failing 
to do--which is to comply with its obligations under Security 
Council resolutions.
    A fourth fact is the importance of maintaining the 
integrity and independence of UNSCOM. The continuation of 
UNSCOM's work is essential if we are to achieve our goal and 
the international community's goal of eliminating Iraq's 
capacity to pose a serious military threat to its neighborhood. 
Unfortunately, if UNSCOM is to succeed, it must, among other 
things, both be and be perceived to be independent.
    It is ironic that Scott Ritter and Saddam Hussein both 
argue that UNSCOM's independence has been compromised by the 
United States. If we were to agree with Scott Ritter on that 
point, we would be conceding a very key point to Saddam 
Hussein. It may be precisely the opposite of his intention, but 
Mr. Ritter's allegations have profoundly undermined the 
perception that UNSCOM is independent. And that will make it 
harder for UNSCOM to do its job--a concern that Chairman Butler 
expressed today in the New York Times.
    As Chairman Butler has also repeatedly affirmed, the United 
States has never impinged on UNSCOM's integrity or attempted to 
dictate its decisions. But UNSCOM's purpose is to assure that 
there are no prohibited weapons in Iraq. So we have a common 
long-term goal. The purpose of every conversation and contact 
we have had with UNSCOM has been to move us closer to achieving 
that goal.
    For 7 years, through Republican and Democratic 
administrations alike, U.S. policy has not changed. We want and 
insist on Iraqi compliance. But this does not mean that our 
tactics are rigid. In pursuing our goal of Iraqi compliance, we 
have sometimes made tactical suggestions to UNSCOM about 
questions of timing and procedure. This is entirely 
appropriate, and it is done by other Council members as well on 
a regular basis.
    No nation, however, has done more to encourage UNSCOM to be 
thorough, unyielding and aggressive in its inspections, and no 
nation has done more to support UNSCOM's dogged and at times 
dangerous efforts in that regard.
    Mr. Chairman, I would call your attention to a letter from 
Chairman Butler to the Washington Post on August the 26th this 
year, in which he writes that, I quote: I have never had any 
reason to doubt the United States commitment to the need for 
Iraq to comply with the decisions of the Security Council. And 
in particular, the United States insistence upon the 
requirements imposed by those resolutions upon Iraq to the 
effect that they must be disarmed of their weapons of mass 
destruction. End quote.
    It is also true that on a few occasions our advice to 
UNSCOM was more cautious. For example, this past January, when 
our military preparations were incomplete and the Muslim holy 
Senator of Ramadan was underway, we judged it was not the right 
time for a major confrontation.
    I note in this regard that Mr. Ritter told this committee 
last week, in fact in answer to a question from Senator 
Coverdell, that he had objected to a planned inspection of the 
Ministry of Defense in Iraq in Baghdad because he thought it 
was, quote, probably heading down a slippery slope of 
confrontation which could not be backed up by UNSCOM's mandate. 
End quote.
    This, Mr. Chairman, was precisely the kind of question we 
also sometimes found occasion to raise. If it was good enough 
for Mr. Ritter, why, in Mr. Ritter's opinion, wasn't it good 
enough for the Secretary of State?
    Given the importance of Security Council unity, we have 
been concerned in recent months that the responsibility for any 
resumption of Iraqi non-cooperation fall where it belongs--on 
the shoulders of Saddam Hussein, not UNSCOM. We had questions, 
which Chairman Butler had answered, about a particular 
intrusive inspection planned by UNSCOM in July of this year. 
But it is important to note that at the very time that we were 
raising a question in this regard, other intrusive inspections 
were going on at the same time, and we were supporting those 
inspections.
    And when Chairman Butler, a short time later, decided to 
proceed with intrusive inspections, under the leadership of 
Scott Ritter, we supported those inspections, which were to 
take place in early August. The issue became moot, however, 
when Iraqi officials informed UNSCOM on August the 4th that 
they were halting any further cooperation. At that point, we 
believed it was best to let the onus fall clearly on Saddam 
Hussein. And Chairman Butler agreed.
    We also knew that some in the Security Council were 
planning to blame UNSCOM for the renewed breakdown in 
cooperation.
    To summarize, if the allegation is that we sought to 
influence the pace of UNSCOM inspections, we did. But we did it 
in order to have the greatest chance of overcoming Iraqi 
efforts at deception. If we had not, we would not have been 
doing our job.
    If the allegation is that we have undermined the 
effectiveness and independence of UNSCOM, the answer is we have 
not. On the contrary, we have been the foremost backer of 
UNSCOM.
    If the allegation is that we have retreated from our 
determination to achieve our goals in Iraq, the answer is that 
we have not and we will not.
    In the Security Council now, even members who have been 
most sympathetic to Iraq's point of view can find no excuse, or 
even sense, in Saddam's last actions. Accordingly, we are 
seeking to take advantage of this new environment to press 
Council members to take the steps necessary to enforce the 
Security Council's resolutions.
    Iraq's latest refusal to cooperate with UNSCOM is a direct 
challenge to the Council's authority. And we seek, in the first 
instance, to have the Council make a firm and principled 
response.
    We recognize that this has put us back on the ladder of 
potentially escalating confrontation with Iraq. So be it. We 
will not accept the indefinite blockage by Iraq of inspection 
activities of UNSCOM and the IAEA. And we will insist that Iraq 
live up to its commitment to cooperate with UNSCOM's monitoring 
activities.
    For all its bluster, Mr. Chairman, Iraq remains within the 
strategic box that Saddam Hussein's folly created for it 7 
years ago. As we look ahead, we will decide how and when to 
respond to Iraq's actions based on the threat they pose to 
Iraq's neighbor's, to regional security, and to U.S. vital 
interests. Our assessment will include Saddam's capacity to 
reconstitute, use or threaten to use weapons of mass 
destruction. The bottom line is that if Iraq tries to break out 
of its box, our response will be swift and strong. But we will 
act on our own timetable, not on Saddam Hussein's.
    Thank you very much, Mr. Chairman.
    Senator Brownback. Thank you, Mr. Secretary. I appreciate 
the statement. And I appreciate your service to your country. 
You have toiled for years in a tough region of the world and 
doing a great deal of work, and I appreciate that.
    Nonetheless, there are some questions that remain some very 
serious questions. You have started and you have touched on 
some of those, and I would like to have you address some of 
those, if we could. Scott Ritter testified last week--and I 
have to tell you, I think he is an American hero. The 
President, before he resigned, talked about Scott Ritter and 
the destruction of weapons of mass destruction that the 
inspection team had done, that more were being destroyed by the 
inspections regime than were destroyed during the Gulf War. And 
here is a stand-up guy that is out doing his job.
    In the hearing that we had, a lot of people were 
challenging him, saying he was dictating U.S. policy. He says, 
look, I am not here to talk about U.S. policy, I was an 
implementer on the ground of this, and I was told twice--
actually more than that--but I was told twice that you cannot 
go in, and that that came from U.S. direction, that we could 
not go in and do inspections.
    And he stated as well at that hearing that the information 
that they had was very important, it was time sensitive 
information, that it was such that it had a very short shelf 
life to it. If it was not used, was not acted upon, that the 
information, the missiles, or the information regarding missile 
technology and systems for Iraq would be moved quickly and they 
would not be able to get it. And both times they were stopped 
by U.S. action.
    Now, I take it from what you are saying here today that you 
do not deny that the U.S. did step in to delay those 
inspections on July 15th and August 4th?
    Mr. Indyk. Mr. Chairman, as I explained, there were two 
instances--those two instances--in which the administration 
spoke to Chairman Butler, in July and August, as you indicate. 
In July, we were briefed about a number of inspections that 
were going to take place as part of this intrusive inspection. 
And we had questions about one of those--possibly two of those. 
I want to be very careful here.
    And we asked those questions of Chairman Butler. Our 
concern and our only motivation, as I said in my previous 
remarks, was to ensure that Saddam Hussein would not be the 
beneficiary of inspections that did not produce results.
    Now, I cannot, from my vantage point, my particular vantage 
point, give you any judgment about how time sensitive the 
information that Mr. Ritter said he had at the time--how time 
sensitive it was or was not, or where, and all of that. That 
was something that Mr. Butler had to make a decision about, not 
the administration. That is the kind of operational issue which 
is in his purview, not ours. We simply raised questions about--
--
    Senator Brownback. But you were making an operational 
decision, then, were you not?
    Mr. Indyk. Certainly not, sir. We raised questions. We did 
support the inspections that Mr. Butler decided on and which 
were going to take place a short time later. Those were, as I 
understand it, the same or similar inspections, with an 
adjustment. That may or may not, because I am not aware of the 
exact details, have taken into account the particular concern 
we had about whether this particular inspection was going to be 
productive.
    And Mr. Ritter went in with Chairman Butler to conduct 
those inspections, which we supported, in early August. In 
other words, we are talking, in effect, about the same time 
line in terms of inspections, which were adjusted by Chairman 
Butler. And those were his operational decisions.
    In early August, Mr. Butler had his discussions with the 
Iraqis, and Tariq Aziz told him that they would not allow 
UNSCOM to conduct further investigations, inspections, unless 
UNSCOM declared that Iraq was free of weapons of mass 
destruction, which Mr. Butler naturally said he would not do.
    Therefore, a new situation was created by Saddam Hussein in 
which the inspections were blocked and we felt at that point 
that, since the inspections were not going to go ahead anyway 
since they were blocked, it was better to keep the focus on the 
fact of Saddam Hussein's blockage of those inspections than to 
muddy the waters by making it look as if there was some kind of 
provocative action, in our eyes provocative, but as I said in 
my own prepared remarks, we were already receiving attacks on 
UNSCOM from other members of the Security Council in 
anticipation of the inspections that had now been blocked.
    Senator Brownback. So, Mr. Indyk, two inspections were 
changed by date, by the U.S. administration. You explained in 
some detail the length of time, or why those were done, but 
those were at the U.S. insistence that we not have inspections 
taking place on those two dates.
    Mr. Indyk. One inspection, Mr. Chairman, was adjusted. The 
second inspection was blocked by Saddam Hussein.
    Senator Brownback. So one was adjusted by the United 
States, in your testimony?
    Mr. Indyk. One was adjusted by Chairman Butler.
    Senator Brownback. At the request of the United States?
    Mr. Indyk. On the basis of his considerations. He consulted 
with many people.
    Senator Brownback. Did the U.S. ask that that date be 
adjusted?
    Mr. Indyk. The date, no. We asked----
    Senator Brownback. Did the U.S. ask that they not inspect 
at that point in time?
    Mr. Indyk. We asked questions about the value of certain 
inspections.
    Senator Brownback. Did you suggest the date on that 
inspection should be changed?
    Mr. Indyk. The date?
    Senator Brownback. Yes.
    Mr. Indyk. Not to my knowledge, sir.
    Senator Brownback. So you're saying Scott Ritter does not 
have that portion of his testimony right, is that correct?
    Mr. Indyk. Well, I am not aware that he had testified we 
changed the date.
    Senator Brownback. You said there were two times, and you 
read his testimony. You quoted from his testimony that there 
were two times that he was requested, or pulled off of 
inspections, actually, that it was at the U.S. suggestion that 
that take place. It was the lack of U.S. support and suggestion 
that those be at different times, that it was very time-
sensitive information. Now, is that lack of U.S. support that 
caused them to stop that inspection?
    Mr. Indyk. Mr. Chairman, Mr. Butler was--is the chairman of 
UNSCOM, was the one who made the decisions. I've told you in 
the first instance we asked questions, in the second instance 
we advised of our view that it made more sense to focus on 
Saddam Hussein's blockage of the inspection than to simply try 
and go ahead with an inspection that would have been blocked 
anyway.
    Senator Brownback. Was there communication between 
Secretary Albright and Mr. Butler regarding these inspections, 
direct communications?
    Mr. Indyk. Yes, Mr. Chairman.
    Senator Brownback. Was there direct communications between 
the two of them regarding the timing of these inspections?
    Mr. Indyk. Well, again, I want to make sure that I do not 
mislead the committee, and so I'm not sure what you mean by the 
timing.
    Senator Brownback. When the inspections would take place.
    Mr. Indyk. As I said to you, as far as the July inspections 
are concerned, we asked questions about a particular aspect of 
those inspections. As far as I am aware it was not a question 
of the date of the inspections.
    The second one, as I made clear, was a different category. 
It was in a different category. We supported the inspections 
until they were blocked by Saddam Hussein.
    Senator Brownback. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman and Secretary Indyk, 
thank you for your testimony.
    First, let me just make a very brief comment and say that I 
think that the focus on keeping the international community 
involved rather than attempting in fact, or to be perceived to 
be acting unilaterally in this particular area, and in this 
particular instance, is critical to any hope for long-term 
success, and I think the way that you and Secretary Albright 
have stated more recently that the consequences may be meted 
out in accordance with a timetable not specifically driven by 
Saddam Hussein is precisely the way to approach that particular 
question.
    There are some, I think, who might confuse the unilateral 
response of the United States to the Osama bin Laden-backed 
activities against U.S. facilities and U.S. entities where the 
United States clearly had an interest and the requirement to 
act alone in a situation in this particular part of the world 
where our relationships with neighbors as well as the 
international community and in particular some of the perm 5 
members has been tenuous at best, and I think the distinctions 
you make in this regard are important.
    Let me just ask you a couple of questions, looking ahead. 
It is clear that Iraq has repeatedly misstated its history and 
intentions with respect to all of the weapons of mass 
destruction and each time they have been forcefully confronted 
with the lack of accuracy, would be the charitable way to 
describe it. They have modified their position under pressure.
    But I think it is fair to say that there is little in the 
history of the relationship that would give anyone any reason 
to believe that their statement as to whether or not they have 
complied with U.N. Security Council resolutions or the 
disposition of the weapons of mass destruction would be 
questioned by any serious review of the history to date.
    Are there, however, additional pressure points that might 
be utilized in carrying out the approach that you have 
suggested today?
    I'm thinking in terms of additional no-fly zones, no-drive 
zones, other matters that might be utilized to ratchet up or 
down, depending upon how you look at it, the pressure for 
compliance when we choose not to react in a specific military 
way at a specific military time that might be to the advantage 
of Saddam Hussein if for no other reason to generate support 
within the area and make the international community look like 
the bad guy or, more importantly to the extent that he can, 
trying to personalize it as a U.S. versus Iraq situation, which 
it is not and should not become.
    Would things of this nature be useful in terms of future 
policy options that we ought to encourage the international 
community and the U.N. Security Council to consider?
    Mr. Indyk. Senator Robb, I want to be a little careful in 
answering your question, because we do not want to telegraph 
our punches.
    Senator Robb. I am not suggesting you be specific in terms 
of what we intend to do. I am asking you about, in a broader 
sense would additional measures--and maybe I should be even 
less specific. I deliberately left out a couple of other 
matters.
    But maybe I should simply ask the question in the sense, 
are there other options that the United States, in conjunction 
with its allies, might consider to make the continued 
intentions of Saddam Hussein and the Government of Iraq more 
likely to, at the very least, pay a price that might be 
something short of actually using sustained military force and 
all that that implies.
    And I might parenthetically add that in response to the 
last question that I asked Scott Ritter in the hearing the 
other day he acknowledged that the only way that his specific 
objectives could be carried out would be with the sustained use 
of military force and all that that implied.
    Mr. Indyk. There is certainly a range of additional 
pressure points. One in particular that we have focused on at 
this moment is the sanctions regime, which has been under 
persistent attack by those in the Security Council who would 
like to see sanctions lifted.
    Senator Robb. Including three permanent members.
    Mr. Indyk. Indeed. Saddam Hussein has, I believe, two 
objectives. One is to retain his residual weapons of mass 
destruction programs, and the other is to have the sanctions 
lifted, and our objective, obviously, is to deny him both.
    UNSCOM is very important in terms of discovering his 
residual weapons of mass destruction programs, but the 
sanctions are very important in terms of denying him the 
resources that would make it possible for him to rebuild his 
military capabilities, including his weapons of mass 
destruction.
    That is why he wants the sanctions lifted, and if we can 
use his refusal to cooperate with UNSCOM to strengthen the 
sanctions regime, we feel in the first instance that that is a 
worthwhile objective because it will increase the pressure on 
him and it will deny him one of his objectives and the fact is 
that keeping the sanctions regime on for the past 7 years has 
significantly weakened Iraq and its capability to threaten its 
neighbors.
    So that is why at this very moment we are seeking in the 
Security Council a resolution that will indefinitely suspend 
the 2-monthly sanction reviews which take place, so as to send 
a signal that as long as he does not cooperative with UNSCOM 
there will be no sanctions relief. You can forget about that.
    As far as other means, I think that perhaps what Mr. Ritter 
was referring to is the fact that we have learned, through 
many, many years, that the only language that Saddam Hussein 
really respects is that of force, and that diplomacy must be 
backed by the threat of force, whether it is UNSCOM efforts or 
other efforts. The threat of force is necessary to make our 
diplomacy effective.
    And as the Secretary of State, Secretary of Defense, and 
the President have said repeatedly, we have not taken force off 
the table. It remains an option, and it remains there to back 
up our diplomacy.
    Senator Robb. I was going to ask another question. My time 
has expired. I would simply add parenthetically that I would 
hope that we would never be in a position in this particular 
situation where we would take force off the table, but I will 
followup with the other part of my question on the next round.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you. Senator Coverdell.
    Senator Coverdell. Mr. Secretary, back to the two meetings 
that the chairman was alluding to. On the first one you said 
you were expressing the need for an adjustment, and the second 
you were trying to reinforce the view that Saddam was blocked 
beginning with the first meeting. What adjustment were you 
pursuing with Mr. Butler?
    Mr. Indyk. I wonder, Mr. Chairman, if there is a way that 
we can deal with this discussion in closed session, because we 
are getting into--I am sorry, I will repeat. I wonder if there 
is some way we can do this in closed session, because we are 
getting into some sensitive details here.
    Senator Coverdell. Let me try to rephrase the question and 
see if that still leaves us in this predicament. Then we will 
leave it to the chair. But the assertion in the previous 
hearing with Major Ritter was that the administration was 
seeking to have him removed from the inspection. Do you know 
whether that was the case or not? Does this----
    Mr. Indyk. I certainly can answer that question, Senator. I 
appreciate your indulgence, and I will be glad to answer it 
personally to you.
    Senator Coverdell. Perhaps on the other question we could 
deal with that by memoranda. That way you would not have to 
alter the matter of the hearing.
    Mr. Indyk. Fine, if that is agreeable to the chairman.
    Senator Brownback. That would be fine with me.
    Mr. Indyk. We did not seek to have Mr. Ritter removed. On 
the contrary. As I said, all we did was ask some questions. 
They were not directed at Mr. Ritter personally at all, and as 
I tried to explain, there were a series of inspections--I 
believe three inspections--that were to be conducted by Mr. 
Ritter a short time after he was told that he could not go 
ahead with the inspections he was planning in July. That is why 
he was going into Iraq with Mr. Butler just a very short time 
later.
    They were--as far as I know, there was considerable overlap 
between the inspections he wanted to conduct in July and the 
inspections he was authorized to conduct by Mr. Butler in 
August a short time later, and we supported those inspections 
that he was going to conduct.
    We had no problem with those inspections. We wanted him to 
go ahead with those inspections. I personally was briefed by 
the deputy chairman in New York a few days before they went to 
Baghdad, and I made clear that we had no problem with that.
    I should emphasize that he was at that time also briefing 
other members of the Security Council who did have problems, 
but we did not.
    The second set of inspections were blocked by Saddam 
Hussein and, as I explained, we then thought tactically it was 
better to keep the focus on Saddam Hussein's blockage. Those 
inspections would not have occurred because of his blockage, 
not because of anything we did or did not do.
    Senator Coverdell. Parenthetically, coming to the second 
point, would it not have been better to have executed the 
inspection and demonstrated to the international community the 
blockage, rather than just accepting the blockage, and it 
strikes me that that did not play.
    Mr. Indyk. Senator Coverdell, that is a judgment call. We 
felt in the circumstances, and I think we continue to feel that 
our judgment was the right one in those circumstances, because 
you had a situation where the Iraqis clearly were blocking the 
inspections where their Revolutionary Command Council issued a 
proclamation that they would not cooperate with UNSCOM any 
more, that it was much better to allow that to stand on its own 
two feet.
    If I can remind you that UNSCOM and particularly its 
chairman were under withering assault throughout this period by 
members of the Security Council and, as I alluded to before 
that very moment one member of the Security Council was already 
charging Iraq with provocation--excuse me, UNSCOM with 
provocation even as the RCC, the Iraqi Revolutionary Command 
Council was issuing its communique blocking the inspection, so 
bear in mind that context.
    People can have different views about what was the best 
thing to do, but it was our view that it was the best way of 
approaching this, since Saddam Hussein in our view had 
blundered, had revealed his obstructions to the world again, 
that we should keep the focus there and that that would redound 
to our advantage in our efforts to get a united Security 
Council response to his violation of Security Council 
resolutions.
    Senator Coverdell. Mr. Secretary, I am going to have to 
depart, and I apologize to the chairman, but I just would say 
in closing that I think the testimony that Mr. Ritter gave 
needs to be reviewed again by the administration, but there are 
clear inconsistencies here. Those things happen in this city, 
but they are particularly meaningful on this point and the 
assertion and documentation with regard to a case being made 
for his removal is pretty clear in the testimony from the 
previous hearing.
    Two specific questions that address that point, and so for 
perhaps a written exchange, if the chairman would allow that. 
We might pursue that question at a later moment, and I 
appreciate the Secretary's response to my questions.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you, Senator Coverdell. I think in 
the essence of time, if you would be open to answering some 
written questions, we will submit those to you, Secretary 
Indyk, because there remain a lot of questions, but there is a 
record that is already being created from Scott Ritter's 
testimony that needs to be followed up with the administration.
    Senator Feinstein.
    Senator Feinstein. Thanks, Mr. Chairman. Welcome, Mr. 
Ambassador. Since August 5 how many inspections have been 
carried out?
    Mr. Indyk. To my knowledge, I think it is accurate to say 
zero, because of Iraqi refusal to allow these inspections to 
take place. Chairman Butler notified the council a little while 
ago that he had tried to conduct three more inspections and 
they were all blocked.
    Senator Feinstein. So for the last month and 3 days, 
essentially, there has been no inspection whatsoever anywhere 
in Iraq, is that correct?
    Mr. Indyk. That is correct. There is still some monitoring 
going on of what I would call declared sites that could be used 
for weapons of mass destruction production. Those are like 
passive monitoring television cameras and so on. That is going 
on.
    Senator Feinstein. And which members of the Security 
Council are having problems sustaining the program of 
inspection?
    Mr. Indyk. I would perhaps answer it by rephrasing the 
question a little bit and see if it does answer your question.
    Senator Feinstein. You can do it much more diplomatically 
than I, I am sure.
    Mr. Indyk. Russia, France, and China are the permanent 
members who believe that the best way to ensure Iraq's 
cooperation is to provide it with incentives to cooperate by 
closing files, weapons of mass destruction files, or partially 
lifting sanctions, and that is obviously not something we are 
prepared to go along with.
    Senator Feinstein. I wanted to talk for a moment about the 
chemical weapons, particularly VX. It is my understanding that 
Iraq did not include VX in its initial postwar declaration, and 
up until 1995 denied producing VX, and it is my understanding 
no VX has been found. However, Iraq has admitted to producing 
3.9 tons of VX, and I understand that unaccounted for is 600 
tons of VX precursors, is that correct?
    Mr. Indyk. I believe so.
    Senator Feinstein. That is enough to produce 300 tons of 
VX.
    Now, UNSCOM apparently revealed that they had unearthed 
missile warheads which contain traces of VX, and those weapons 
were subsequently tested and found to have VX on them, is that 
correct?
    Mr. Indyk. That is correct.
    Senator Feinstein. And yet for over a month there has been 
no testing whatsoever, and I take it no one knows, outside of 
intelligence, where those precursors may be.
    Mr. Indyk. That is correct.
    Senator Feinstein. So there has been ample time, wherever 
they are, for the Iraqis to move them.
    Mr. Indyk. That is correct. That, of course, would be the 
case even if UNSCOM were operating in Iraq. They still might 
get caught, but they would still have the ability to move 
things around, and we know that they do that on a regular 
basis.
    Senator Feinstein. I guess what bothers me, and the reason 
I brought up this one indication, is here you had a missile 
warhead tested in a neutral country, and it came up positive 
for VX, and yet you have these countries committed, including 
our own, theoretically committed to a regimen of inspection 
allowing some technology transfer to go ahead in the meantime, 
and yet there is this glaring problem among others.
    What is keeping countries from carrying out their 
responsibility?
    Mr. Indyk. Well, I think the best way I can put it is that 
they view things differently to the way--let us say, they view 
their responsibilities different to the way that we view ours, 
and they weigh other considerations when they assess their 
national interest. Whether they are economic considerations, or 
their view of strategic interests, they come out in a different 
place.
    Senator Feinstein. Of the warheads that were tested that 
have the VX on them, can you tell us more about those warheads?
    Mr. Indyk. I would refer you to a recent submission in the 
last few days by Chairman Butler to the Security Council which 
has some very detailed information about not only the VX 
warhead but also this document on chemical munitions used 
during the Iraq-Iran War, and I would be glad to provide a copy 
of that letter for you. I think it has some details, and 
perhaps we could put that in the record. I think that has not 
been generally available. People are aware of it.
    I would like, if you will indulge me for a moment, to focus 
on the other issue which has not had much attention, which is 
this document that was discovered. I might add that it was 
discovered in July of this year as a result of intrusive 
inspections, which we supported, of Iraqi Air Force 
headquarters, and the importance of this document, which is 
still in Iraqi possession, which they refuse to hand over, also 
a violation of the Security Council resolutions.
    But that document reveals that Iraq used in the Iraq-Iran 
War substantially less, perhaps 50 percent less chemical 
munitions than it claims to have used, therefore leaving the 
question of what has happened to thousands of chemical 
munitions which are now unaccounted for as a result of this lie 
that the Iraqis have told and other lies they have told about 
how many munitions they used up during the Iraq-Iran War.
    Senator Feinstein. Just to conclude, because my time is 
about up, because it seems to me that the presence of this kind 
of VX chemical which is so 100-percent deadly already on a 
warhead tested by a neutral country ought really to be a signal 
to these nations that they ought to heave-to.
    Just one final question. When do you expect that there will 
be some action out of the Security Council with respect to 
their own initiatives being violated?
    Mr. Indyk. Well, on the first point, not for the first 
time, Senator Feinstein, I agree with you wholeheartedly.
    On the second question, I think that we should expect in 
the next day or two a Security Council resolution which will 
indefinitely suspend the sanction reviews, and that will make 
it clear that the Security Council will not even discuss the 
possibility of lifting sanctions as long as Iraq is not 
cooperating with UNSCOM and the IAEA, and I hope that that will 
be a unanimous decision of the Security Council.
    The Security Council has already taken some other actions 
which help to build the diplomatic effort here, first of all by 
declaring that Iraq's actions were totally unacceptable, and 
then by responding to complaints by the heads of UNSCOM and the 
IAEA to the fact that they were unable to carry out their 
mandated activities.
    The council unanimously told them to go ahead and conduct 
those activities, and that they have the support of the council 
for doing so.
    Now, with the indefinite suspension of the council reviews, 
if we have unanimous support for that I think that the council 
will clearly be on record as condemning Iraq's actions and 
making clear that it is unacceptable, and making clear that a 
price will be paid.
    Saddam Hussein has threatened that he will take ``decisive 
actions'' if this resolution goes ahead, and we will have to 
see, and then, of course, the council will have to deliberate 
about what other steps it is prepared to take if he does not 
come back into compliance with UNSCOM and the IAEA, so it is an 
unfolding drama, if you like, in which we are taking it one 
step at a time.
    But we are finding this time around, as opposed to any time 
in the last year through the multiple crises we have been 
through with Iraq in the Security Council, that we have much 
stronger support on our side than we have had in those previous 
crises.
    Senator Feinstein. Thank you.
    Senator Brownback. Thank you, Senator Feinstein. We do have 
limited time. We will probably go on to the next panel. I know 
Senator Robb had an additional question. Can we go ahead and 
wrap up with this witness and move to the next panel?
    Senator Robb. Mr. Chairman, the only question I was going 
to ask for Secretary Indyk had to do with concerns that are 
frequently raised by other members of the Arab community and 
specifically raised by a number of Arab-Americans that are 
concerned on a humanitarian basis about the oil for food 
program and whether or not it is working and whether or not any 
changes might be being considered in that area, and I would 
just welcome any comment Secretary Indyk might have on the 
effectiveness of that program as we see it today.
    Senator Brownback. Let me hook onto the back end of that, 
then, a question, if you are going to raise that, because I 
have got some concerns about that and particularly, apparently, 
there have been reports that Iraq was cleared by the U.N. 
Sanctions Committee to receive medical shipments from the plant 
that we bombed in Sudan, and I wanted to get from you--I do not 
quite understand that, if that, indeed, took place, and that 
was supposed to be in this oil for food program, so if you 
would care to explain how that clearance could have passed 
through if the plant was not producing pharmaceuticals.
    Mr. Indyk. First of all, to answer Senator Robb's question 
quickly, as you know, the oil for food program which was 
instituted through our initiative, because of our concern about 
the impact of sanctions on the Iraqi people, and because of 
Saddam Hussein's refusal to meet the needs of the Iraqi people, 
that oil for food program has been expanded as a result of a 
recommendation from the Secretary-General, and the expansion 
was designed to meet the basic needs of the Iraqi people for 
food and medicine and then some to pay for infrastructure 
improvements for schools, hospitals, the electricity grid and 
so on.
    The difficulty that has now been encountered relates to the 
fact that the drop in the price of oil requires the export of 
greater amounts of oil to make up the revenues needed to 
purchase these foods and medicines and other things, and the 
Iraqi infrastructure, oil infrastructure is not capable of 
pumping at a rate that would meet the demand and that is 
something that we have to look at through the Security Council 
mechanisms to see if there is something that can be done at the 
same time as we make sure that dual use equipment does not go 
to Iraq in this process, and that is something we can do, and 
we do scrutinize very carefully through the Sanctions 
Committee, where every member of the Sanctions Committee has a 
veto over whether these contracts should be fulfilled, and we 
do have an ability to exercise fairly tight control over what 
goes in.
    On the other hand, by exercising tight control sometimes it 
can take longer for this equipment to get in there to be able 
to improve the oil infrastructure so that the oil can be 
exported and the revenues generated to buy the humanitarian 
goods.
    As far as your question, Mr. Chairman, I am not personally 
aware of the exact details of this supposed contract from 
Sudan, and if you will indulge me I will take that and get a 
written answer.
    Senator Brownback. I appreciate that. Thank you, Secretary 
Indyk. It seems like we are at a precarious time here. I look 
forward to your further advice to this committee and working 
closely with us, because this is an extremely important issue.
    Thank you for coming.
    Mr. Indyk. Thank you very much, Mr. Chairman.
    Senator Brownback. The next panel will be a group of 
luminaries that have served the U.S. well in many capacities. 
First, Hon. Jeane Kirkpatrick, Senior Fellow, American 
Enterprise Institute, former U.S. Permanent Representative to 
the United Nations.
    Next will be Hon. James Woolsey, former Director, Central 
Intelligence Agency, and Hon. Richard Murphy, Council on 
Foreign Relations, and former Assistant Secretary of State for 
Near Eastern and South Asian Affairs, and Hon. Lawrence 
Eagleburger, former Secretary of State.
    This is quite an illustrious panel we are delighted to have 
in front of us and join us here today. I think unless the 
panelists have agreed differently we will go down the order in 
which I read your names, unless you would like to go 
differently.
    That would be Ms. Kirkpatrick first, and Mr. Woolsey and 
Mr. Murphy and Mr. Eagleburger, unless the panelists have 
agreed on any different order.
    I do know there has been a request from Secretary 
Eagleburger that he not go first. He has asked me that. So that 
is the only request the chairman has today.
    So if you do not mind, we will run the time clock, because 
it is a large panel and we would like to get a number of 
questions, at 7 minutes, if that will help a little bit on 
direction on time, and then we could get to a series of 
questions if that would be acceptable as well.
    Ms. Kirkpatrick, thank you very much for joining us today, 
and we appreciate you being here. I am sure you have been in 
front of this committee before in various capacities. Thanks 
for coming.

STATEMENT OF HON. JEANE J. KIRKPATRICK, SENIOR FELLOW, AMERICAN 
ENTERPRISE INSTITUTE; AND FORMER U.S. PERMANENT REPRESENTATIVE 
            TO THE UNITED NATIONS, WASHINGTON, D.C.

    Ambassador Kirkpatrick. Thank you very much, Mr. Chairman, 
and I thank you for inviting me, and I thank the committee, and 
I am honored to appear.
    Senator Brownback. Could you speak right into the 
microphone? I think it is a cheap system, so you have got to 
talk right into it.
    Ambassador Kirkpatrick. Is that all right?
    Senator Brownback. Yes, it is.
    Ambassador Kirkpatrick. I just thank you for inviting me. I 
wanted to say that I have thought a good deal about the subject 
of this hearing since you invited me to appear here, as, 
indeed, I have thought a good deal about it before you invited 
me to appear here, and I remain as puzzled in my thinking about 
it as I was before I started thinking about it.
    I cannot fathom quite what the administration intends by 
its policies in regard to the testimony of Scott Ritter, who I 
think is a distinguished international public servant, and who 
has obviously done brilliant and outstanding work in UNSCOM.
    I was shocked when I initially read the charges, is perhaps 
not the right word, but the indications from other anonymous 
members, the members of the UNSCOM Inspection Committee, that 
the administration was seeking to discourage inspections, 
particularly intrusive inspections which might cause trouble, 
and I thought, well, there must be some explanation for this, 
and there probably is, but I have not found it myself.
    I have thought hard about the U.N. environment, which is 
one I know something about, frankly, and I assumed initially 
that perhaps there was an agreement with the Secretary-General 
or perhaps a complex agreement perhaps only half spoken and 
half-understood, that the members of the UNSCOM team would 
avoid provoking Iraq, and if the inspection team behaved with 
enough discretion and respect and restraint in exploring the 
issues it is assigned to explore, that the Iraqis would 
cooperate.
    Let me say that I do know from personal experience in the 
United Nations that Iraq enjoys much greater standing in the 
United Nations generally than most Americans understand, and 
its representatives enjoy better reputations inside the U.N. 
than most Americans anticipate, and moreover there is within 
the United Nations a powerful drive to conduct its activities 
on the basis of consensus.
    Indeed, it is often suggested that seeking consensus in 
almost all activities is a goal in itself, and a principal goal 
of the U.N. It becomes an end as well as a means, and so I 
thought to myself that perhaps there was some agreement between 
the Secretary of State and the Secretary-General that was, 
perhaps, part of an offshoot of the agreement, or the report 
from the Secretary-General on his trip to Iraq, the time of his 
trip to Iraq, which was designed to quiet a previous 
disturbance, and to make it possible for the basic agreement 
that had given rise to the creation of UNSCOM to be carried out 
and to be implemented.
    And then I thought, well, when I thought that, I thought 
well, maybe that is not so bad, maybe it is not bad at all, but 
we need to know about that.
    What seems to me to be not reasonable, really, is to give 
the American people, including the attentive public, the 
impression that the United States is vigorously pursuing a 
policy of inspections and is determined to do so, and will do 
so, and then not to do it, but to repeatedly instruct members 
of the UNSCOM team, which has been a very distinguished and 
very outstanding international team, it seems to me, looking 
from a distance, not to follow their own judgment or to 
implement their judgments concerning the possibilities for 
inspections, and which inspections are most likely to yield the 
kinds of information that it is their business to seek.
    And then I thought, well, perhaps the Secretary of State 
has made some sort of special agreement with France, who is 
sometimes given to make special agreements, to be restrained in 
the pursuit of the inspections, but then I thought, if they can 
share this information with France, or perhaps with the Foreign 
Minister Primakov, for example, concerning timing or some other 
aspects of the inspections, perhaps that is reasonable, but 
surely the administration ought to tell us something about 
these arrangements, enough to assist us in making sense of this 
policy.
    I read Secretary Albright's testimony, her comments on the 
Ritter testimony, and she sounded simply angry, it seemed to 
me, and suggested that Mr. Ritter was not looking at the 
problem in its full complexity, and that if he was looking from 
a higher perspective he would see a broader picture, and so I 
thought, well, yes, the broader picture must be some sort of 
arrangements, understandings with France, or with China. We 
have never had special understandings with China usually on 
these subjects at the United Nations, but we certainly do with 
France, and with the Russians.
    I believe that the administration has an obligation, and I 
believe that no matter how far one bends over backward to try 
to understand their goals and their justification for this 
behavior and this treatment of a distinguished American civil 
servant, I think that it is unacceptable, frankly, that it does 
not fulfill the necessary obligation to assist us in making 
sense of our policy. It is a kind of trust-me attitude which is 
really not adequate about a matter which is so important that 
we went to war over it, our relation with Iraq.
    And so I think the administration has violated its 
obligations to us in this regard, and to UNSCOM, and that they 
owe us all some sort of explanation and perhaps apology.
    Thank you, Mr. Chairman.
    Senator Brownback. Thank you for joining us, Ms. 
Kirkpatrick. We appreciate it very much, and we look forward to 
having some questions with you.
    Mr. Woolsey, thank you for being here in front of the 
committee.

 STATEMENT OF HON. R. JAMES WOOLSEY, FORMER DIRECTOR, CENTRAL 
             INTELLIGENCE AGENCY, WASHINGTON, D.C.

    Mr. Woolsey. Thank you, Mr. Chairman. In addition to 
endorsing Ambassador Kirkpatrick's remarks, let me make just a 
few points, perhaps derived from Ambassador Indyk's testimony, 
and let me preface this by saying, I have a rather bipartisan 
view toward our policy with regard to Iraq.
    I think from the closing hours of the war in 1991 we have 
made a number of mistakes in dealing with Iraq. I think the war 
stopped too soon. Even if one does not believe we should have 
continued on to conquer the country, we could have done a lot 
more damage to Saddam Hussein's Republican Guard than we did.
    I think we were hurt badly by not protecting the Shia in 
the South when they rebelled in 1991. I think we erred badly in 
permitting the flight of helicopters around Iraq and in not 
establishing a no-fly zone over the entire country when we had 
the forces and the support there to do it, including from the 
Government of Turkey.
    I believe we erred badly in 1993, when President Clinton 
responded to the assassination attempt against former President 
Bush by putting a few cruise missiles on an empty building in 
the middle of the night.
    I think we erred badly in 1996, when we stood aside and our 
pilots watched from the air while supporters of democracy in 
Iraq were massacred in northern Iraq.
    I think we erred badly, and I appreciate the support of 
some members of this committee, in taking a very harsh and 
procedurally unsound stance against some Iraqis who had fought 
against Saddam, an issue that has come up in other contexts I 
am involved with.
    I think we have erred badly in criticizing Scott Ritter, 
the Government has, for the principled stand that he has taken, 
and I believe that this set of errors in dealing with Iraq has 
spanned, now, some seven-plus years.
    It is almost as if we have in a random set of 
circumstances--although we have done some useful and positive 
things I will certainly admit--nonetheless in an important 
subset of our dealings with Iraq we have seemed to punish and 
deal harshly or at best ignore those who are struggling for 
democracy and against Saddam Hussein, and have appeased--and 
there is no real other word for it--appeased Saddam himself.
    Now, I believe Ambassador Indyk is a very able public 
servant, and a dedicated one, and I take issue with some of the 
things he said here in a spirit of vigorous debate before the 
Congress, and not any denigration of his abilities or 
dedication.
    Let me make several points in connection with his remarks. 
He said that American policy with respect to these inspections 
has not been duplicitous. I suppose I would agree with that. I 
think it has been far too clumsy to deserve the label of being 
duplicitous.
    Sometimes in foreign policy it is useful, on national 
security matters, to feign weakness in order to be able to act 
strongly. That goes back at least to Joshua, Joshua's conduct 
of the campaign against the city of Aa in the war to take 
Canaan, where he retreated in order to be able to attack from 
the rear, but we are doing it the other way around.
    We are reversing Theodore Roosevelt's dictum and speaking 
loudly but carrying a flimsy stick. We are behaving as if we 
were a sheep in wolf's clothing, rather than the other way 
around.
    Now, Ambassador Indyk said that he criticized Mr. Ritter 
for indirectly, and not intentionally, playing into Saddam's 
hands by saying UNSCOM was not independent. But Mr. Ritter has 
said that UNSCOM was not independent in that the United States 
was tweaking UNSCOM to be weaker, whereas the charge from Iraq 
is that the United States improperly urges UNSCOM to be more 
harsh than would be appropriate. There is a very large 
difference between what Mr. Ritter has said and what Saddam 
Hussein and the Iraqis have said.
    Ambassador Indyk said that on a few occasions we have 
advised caution, and there was a good deal of colloquy about 
the July 15, as well as the August 4 inspections. But as I take 
it, Mr. Ritter's point is that on a number of occasions we have 
inspected things which were not particularly strategically 
important, and we have foregone inspections that were extremely 
important.
    Now, I know from my conversations with Ambassador Ekeus, 
who was a diplomatic colleague of mine some years ago in 
Central Europe, that--and this has been widely reported in the 
press--the key elements in Saddam's hiding of weapons of mass 
destruction and in much of what he is doing are the Special 
Republican Guard and the Special Security Organization, which 
organizations are also involved in his own personal security. 
They travel around with him. They prepare where he goes. 
Therefore, efforts to be productive, to use Ambassador Indyk's 
term, are by definition going to be provocative in a sense.
    If you are a head of State and your body guard is smuggling 
narcotics and they travel around with you, an outside law 
enforcement agency that insists on pursuing those narcotics is 
going to come very near you. You would probably regard that as 
provocative, and Saddam does.
    But that is a very different thing than keeping just a 
numerical scorecard of inspections, as if inspections came by 
the pound, like beans, and one was equal to another. They are 
not. The inspections could have been geared toward uncovering 
the role of the Special Republican Guard and the Special 
Security Organization about which Mr. Ritter has complained. 
From this perspective as being some inspections that were 
struck may have been considerably more important than some of 
the ones that were undertaken.
    Now, regarding the role of the Russians, the Chinese, and 
the French in this matter, Ambassador Indyk spoke 
diplomatically about their having a different perspective--
their believing that incentives such as closing files and the 
like would have an effect, and their having a different view 
about economic and security reasons and the like.
    I would be far harsher here. The French are after oil 
contracts. The Russians are after getting paid for the many 
billions of dollars that they are owed by Iraq from earlier 
weapons contracts. The Chinese doubtless have a mixture of 
motives.
    But all three nations are behaving in this regard somewhat 
the way a friend of mine with whom I used to scuba dive 
regularly described, with tongue in cheek, the buddy system in 
diving. He says the buddy system is, if a shark comes up, you 
take your diving knife, scratch your buddy, and swim away in 
the opposite direction. That is essentially what the Russians, 
the Chinese, and the French have been doing in this matter.
    And I see, Mr. Chairman, my time is up, so I will close 
with these opening remarks. Thank you.
    Senator Brownback. That is some buddy to dive with. I would 
not go into too many shark-infested waters with him.
    Mr. Woolsey. He was kidding.
    Senator Brownback. Mr. Murphy, thank you very much.

 STATEMENT OF RICHARD W. MURPHY, SENIOR FELLOW FOR THE MIDDLE 
               EAST, COUNCIL ON FOREIGN RELATIONS

    Mr. Murphy. Mr. Chairman, thank you for the invitation.
    The administration is charged with weakening, even 
withdrawing support for UNSCOM. Some commentators have gone 
further and talked of malfeasance and betrayal by senior 
officials. I have personally been critical of the 
administration in the past, for its excessive use of rhetoric 
about using force when I did not feel that it was ready to back 
that rhetoric up.
    But I submit that the administration, as you look at some 
other evidence, has been consistent in pursuing its core 
objectives of curtailing Baghdad's ability to produce weapons 
of mass destruction and to deter Iraq's aggression against its 
neighbors. Now, these objectives have been, and they remain, 
well within America's capability to assure their achievement.
    There has been a shift of emphasis, as best I understand 
it, from talking of the military option and stating we will 
respond militarily and automatically if Iraq interfers with the 
inspection process. It has shifted to, call it, the diplomatic 
option. There is not a new policy, however. And deterrence is 
certainly not a new policy. We have always stood ready to deter 
Iraqi aggression. But, of course, for deterrence to work, we 
have to be both ready to use force, and Baghdad has to clearly 
understand that we are ready to act and deter it.
    Now, UNSCOM has unquestionable value in tracking and 
supervising the destruction of the weapons and to limit the 
chances for further cheating. I think the question that Senator 
Feinstein posed earlier is very legitimate, and it is a 
pressing one: How long should Iraq be allowed to block 
inspections and continue the present impasse?
    Going it alone militarily is an issue that no one appears 
to be pushing because of the cost in American lives and the 
deepening of American isolation in its efforts to contain Iraq. 
I think that the way Mr. Indyk has described it, and some 
earlier statements by the Secretary of State, suggest it has 
been a shrewd policy, or a shrewd tactic, to pin the 
responsibility on Saddam Hussein in the month of August for 
calling for a total blocking of inspections. I think it was 
shrewd.
    No one in the administration, to my knowledge, denies that 
the use of force may yet be needed. I think there are two 
reasons we must keep in mind in order to avoid some of the 
excesses in our past rhetoric. First, we cannot compel Iraq to 
surrender whatever remaining stocks of weapons of mass 
destruction it may possess. We can punish it for failing to do 
so. We can work on the sanctions. We can work on building on 
what I believe was the British suggestion to suspend even 
periodic reviews of sanctions.
    A second reason for avoiding this excessive rhetoric is 
that we do not appear to have the support of regional powers to 
mount a major military campaign against Iraq, whether we go it 
alone or whether we can pull other nations along with us.
    The emphasis on diplomacy in recent weeks suggests that the 
lessons of last February were learned. The role of the 
Secretary-General, Ms. Kirkpatrick has addressed. I believe the 
U.S. should continue to see the Secretary-General as a useful 
instrument. But it has to make clear to other Council members 
that it is pointless to broker diplomatic deals unless the 
Council itself acts to enforce those deals.
    Until recently, we have had a relatively strong consensus 
in the Council. I certainly agree with Ms. Kirkpatrick's remark 
that consensus is not an end in itself. But the fact is we have 
had a pretty good consensus. Time has eroded that consensus, 
and regional developments beyond the Iraq issue have eroded 
that consensus. We have focused today exclusively on Iraq and 
the U.S. reaction to Iraq. But we cannot look at Iraq in total 
isolation.
    There is a twofold value in keeping that Security Council 
consensus. We have overriding interests in preserving financial 
controls over Iraqi revenues and an effective long-term 
monitoring program of its weapons. And for that we need the 
votes, the support, in the Council.
    The U.N. currently controls the bulk of Iraqi oil revenues 
through the food-for-oil program. Iraqi leaders detest this 
program. They make no secret of it. And they are working to 
discredit it around the Arab world. The long-term monitoring 
program includes the right to make surprise intrusive 
inspections prompted by any evidence that Iraq is continuing to 
manufacture weapons of mass destruction. And so that long-term 
monitoring is also obviously vital.
    Arab criticism of our Iraq policy has grown because of two 
interrelated reasons. First, they doubt we would do enough 
militarily to cause Saddam's overthrow. Second, open agreement, 
open cooperation with the United States against a fellow Arab 
state is more embarrassing for them today, than it was in 1991, 
right after the war, up until 1996. This is because more than a 
year has passed with no progress in the Arab-Israeli peace 
negotiations,
    In the regional environment, in terms of openly cooperating 
with us, there has been a sea change. President Clinton was 
able 2 years ago to convene virtually all regional leaders, 
along with many other world leaders, to an anti-terrorism 
conference at Sharm al-Shaikh. This was in 1996. That kind of 
attendance could not be duplicated today.
    The critics, both foreign and domestic, of America's 
current policy toward Iraq, on the question of the humanitarian 
program, would argue that it should be maintained, and that 
linkage should be kept between economic sanctions and military 
sanctions. I do not think those should be separated, as some 
have recommended to your body--not by today's panel but in 
letters circulating in the Congress.
    There needs to be a better dialog between this 
administration and the Congress. You have authorized funds to 
stimulate unity among Iraq's fractious opposition elements. You 
should, you will, I am sure, continue to demand an accounting 
of the administration's efforts. But you must accept that there 
are likely to be no quick results in that regard.
    In sum, Washington should focus its energies on obtaining 
Security Council cooperation against any effort by Saddam to 
reactivate his weapons program or attack his neighbors. The 
diplomatic option offers no quick fix. But it should, and it 
can be developed to support our interests rather than undermine 
them.
    Thank you, sir.
    [The prepared statement of Mr. Murphy follows:]

                  Prepared Statement of Richard Murphy

    The Administration is accused of weakening if not withdrawing its 
support for UNSCOM. It is well to recall our longstanding objectives in 
Iraq. True, last February the Administration stressed its readiness to 
launch a military strike on Iraq if Baghdad continued to obstruct 
UNSCOM's operations. As the Secretary of State outlined to the New York 
Times August 17, ``We will decide how and when to respond to Iraq's 
actions, based on the threat they pose to Iraq's neighbors, to regional 
security and to U.S. vital interests . . . (including) Saddam's 
capacity to reconstitute, use or threaten to use weapons of mass 
destructions.'' Therefore according to the Secretary of State our core 
objectives remain the same: Washington seeks (a) to curtail Baghdad's 
ability to produce weapons of mass destruction (WMD) and (b) to deter 
Iraq's aggression against its neighbors. These objectives remain well 
within our capabilities to achieve.
    The shift of the past months has been towards giving more emphasis 
to pursuit of our diplomatic options than to a military strike. Critics 
here and abroad have asserted that Washington is following a ``new'' 
policy of deterrence. This is not new. From the beginning, one element 
of our policy has been to contain, i.e. deter Iraq from future 
aggression. We can and will keep Iraq from attacking it neighbors. Both 
readiness to use military force to support US interests and Baghdad's 
clear understanding that we will do so are vital to deterrence.
    UNSCOM has been of great value in tracking down and supervising the 
destruction of Iraq's existing WMD stocks. Its presence has also made 
it easier to limit the chances of further cheating by Iraq. If Saddam's 
latest challenge is allowed to stand, UNSCOM is finished. There have 
been no surprise inspections since Iraq's announcement in the first 
week of August that it had suspended cooperation with UNSCOM and the 
International Atomic Energy Agency. It has extended its interference to 
routine monitoring operations. How long Iraq should be allowed to block 
inspections is a pressing and legitimate issue for debate. But going it 
alone against Iraq militarily would deepen America's diplomatic 
isolation and could cost American lives. Indulging in bellicose 
rhetoric, meanwhile, only damages American credibility.
    I am not privy to whatever discussions may have taken place between 
US officials and UNSCOM Director Ambassador Richard Butler about the 
inspection process, in particular about the timing of surprise 
inspections. But I believe the Administration acted shrewdly to deny 
Baghdad any ground to argue that the UNSCOM by a specific surprise 
inspection had provoked Iraq into blocking the inspection process.
    No one in authority has denied that force may yet be needed to 
curtail Baghdad's capability to produce WMD or to block any move Iraq 
might make against its neighbors. As the Secretary General of the 
United Nations himself last February commented that while diplomacy is 
good, diplomacy backed by force is better.
    In the meantime, there are two principal reasons to avoid what I 
consider our past excessive rhetoric about America's military option. 
First, we cannot compel Iraq to surrender whatever remaining WMD stocks 
it possesses. But we can punish it for failing to do so. We can, for 
example, maintain sanctions on Iraq and build on the British suggestion 
that even the periodic reviews of sanctions be suspended until Iraq 
reopens the door to further inspections. Second, we do not appear to 
have the support of regional powers to sustain a major military 
campaign against Iraq.
    On the first point, since ``Desert Storm'' Saddam has been willing 
to forfeit the $100-120 billion in oil revenues Iraq could have earned 
through compliance with UN resolutions. Instead of enjoying 
unrestricted oil sales, he has opted to conceal key details about the 
procurement and production time tables of his weapons systems. Saddam 
must consider this information and these stocks central to his hold on 
power.
    Furthermore, in a television appearance last weekend, former UNSCOM 
inspector Scott Ritter usefully reminded us that Iraq had absorbed the 
blows dealt it in ``Desert Storm'' by the international coalition and 
appears to have decided it can absorb another such attack. So what is a 
credible objective for the use of force?
    By emphasizing the diplomatic over the military option, the 
Administration shows it learned from last February's experience in the 
Council. Six months ago we talked tough, while hoping Secretary General 
Kofi Annan would bring back an acceptable agreement from Baghdad. 
Saddam has now dishonored that agreement. Yet it is not clear that he 
intends to burn his bridges with the Secretary General. Presumably 
Baghdad hopes to use Annan in its campaign to split other Council 
members from the United States. The US should continue to see the 
Secretary General as a useful instrument. But Washington must make it 
clear to other Council members that it is pointless to broker 
diplomatic deals unless the Council acts to enforce those deals.
    Until now, Washington has maintained a relatively strong UN 
Security Council consensus on a policy of combining sanctions on Iraq 
with intrusive inspections of Iraqi weapons of mass destruction. The 
passage of time and regional developments, including stagnation in the 
Arab-Israeli peace process, have eroded that support. This seems to 
underpin the reasoning of the Administration's new stress on diplomacy.
    We need to keep the maximum possible unity within the Security 
Council for two reasons: preserving financial controls over Iraqi 
revenues and an effective long term monitoring program of its weapons. 
The UN currently controls the bulk of Iraq's oil revenues through the 
``food for oil'' program. Iraqi leaders detest this program and is 
working hard to discredit it. The long term monitoring program which 
includes the right of making surprise intrusive inspections prompted by 
any evidence of Iraqi continued manufacturing of WMD is obviously 
vital.
    We need to pursue several US objectives in the Persian Gulf and the 
broader Middle East. To achieve many of them we need an endorsement of 
our policies by regional states, beyond those already received from 
Israel.
    Arab criticism of our Iraq policy has grown because of two 
interrelated reasons. First they doubt we would do enough militarily to 
cause Saddam's overthrow and, second, open cooperation with America 
against an Arab state is more embarrassing for them today after more 
than a year of no progress in the Arab-Israeli peace process than it 
was in the period 1991-96. The regional environment favoring open 
cooperation with the United States has undergone a sea change since 
President Clinton was able to convene an anti-terrorism conference in 
Sharm al-Shaikh in 1996. That attendance could not be duplicated today.
    We have heard a chorus of complaints from the Arab World about 
America's double standard. Their speeches and media commentaries 
contrast US demands for strict implementation of UN resolutions by Iraq 
while seemingly reluctant to press Israel on peace process issues. One 
need only recall the negative Arab reaction to our talk of a military 
strike on Iraq last February to appreciate how the peace process and 
Iraq policy are intertwined. Washington realized at that time that its 
military options could be severely restricted even by such friendly 
countries as Saudi Arabia.
    It is hard to maintain a consistent policy towards Iraq. The 
Administration must contend with foreign critics many of whom want us 
to ease sanctions and domestic critics who want us to intensify 
pressures on Saddam. Fortuitously, Saddam's latest challenge has again 
served mainly to embarrass both France and Russia, the Council's 
leading proponents of easing the existing sanctions.
    Some have argued that Washington should delink economic and 
military sanctions on Iraq because the economic sanctions only serve to 
extend human suffering. I prefer the current approach of permitting 
generous sales of Iraqi oil for food and infrastructure development but 
retaining the UN control mechanism over Iraqi exports and imports.
    On the domestic side, there needs to be a better Administration 
dialogue with the US Congress. Congress has authorized funds to 
stimulate unity among Iraq's fractious opposition elements. Congress 
should and will continue to demand an accounting of the 
Administration's efforts but must accept that there likely will be no 
quick results.
    In sum, we will need more cooperation from fellow members of the 
Security Council and from regional states. Washington should focus its 
energies on obtaining Security Council cooperation against any effort 
by Saddam to reactivate his weapons program or attack his neighbors. 
While diplomacy offers no quick fix, it should and can be developed to 
support our interests rather than undermine them.

    Senator Brownback. Thank you, Mr. Murphy. I appreciate you 
coming and testifying. Secretary Eagleburger, thank you for 
joining us.

STATEMENT OF HON. LAWRENCE S. EAGLEBURGER, FORMER SECRETARY OF 
                             STATE

    Mr. Eagleburger. Yes, sir.
    I want to approach this from a somewhat different 
perspective. I was fascinated to listen to Secretary Indyk this 
afternoon, and thought maybe I would get some clear sense of 
what the administration's policy was with regard to Iraq. I 
have to say I do not think I got it.
    But let me start by saying I can understand the 
administration's concerns with regard to the Security Council 
members who do not like the sanctions or want to relieve them. 
I can understand all of the pressures that they see developing 
with regard to a policy that would be more confrontational. But 
what I do not see, and I want to try to go through this in just 
a minute, is what the conclusion to this whole set of 
assumptions they make--where does all this lead us. And I 
cannot find it leading us anywhere.
    But let me quote one thing, and I think I got it directly 
from Secretary Indyk, which I think is really the clear-cut 
sense of where they are, and also how I think fruitless all of 
this is. The United States supported inspections until Saddam 
Hussein blocked them. Well, gee whiz. I mean, he said it. And 
it seems to me it kind of leaves us about where we now are, 
which is we do not know where we are.
    He said, as well, that we want to focus on Saddam Hussein 
and the fact that he blocked the inspections rather than try to 
go ahead with the inspections. I think Senator Coverdell asked 
a particularly useful question when he said, wouldn't the way 
to demonstrate that the inspections are being blocked have been 
to insist that we go ahead with the inspections and then have 
it demonstrated that in fact Saddam Hussein was blocking them?
    But, again, the point here is that I do not understand what 
is being said about a policy when we say we are going to focus 
on Saddam Hussein and his blocking of the inspections rather 
than pursuing the inspections. To me they are certainly 
related. And I do not know how you focus on Saddam Hussein's 
blocking the inspections unless you make it clear you want to 
go ahead with the inspections. I suppose you can have a press 
conference every day and say, Saddam Hussein is blocking the 
inspections. That is the only way I see that you can focus on 
this thing.
    Now, as I said, I can understand the administration's 
concerns about a more clear-cut policy. But I worry very much 
about where the administration is in the sense that I do not 
think we go anywhere with it. It is nice to say that we have 
not taken the threat of force off the table, or rather the use 
of force, off the table. I would suggest to you if in 30 years 
in the U.S. Government I did not learn anything else, I learned 
that if you are not careful, you will send the wrong message to 
your adversary, and he will decide you are not going to do 
something when in fact, at the back of your mind, you may have 
to do it.
    Now, I am not saying that--what I am saying, rather, is 
saying we have not taken the threat of the use of force off the 
table does not mean a thing unless the other side understands 
that you in fact may be prepared to use force. And I would 
suggest to you that the whole reaction to what has taken place 
since Saddam Hussein, this time, has blocked the inspections--
and indeed, I would go back in fact to the arrangements that 
were made by the Secretary-General of the U.N. earlier this 
year--I would suggest that the fundamental message at this 
stage is while we say we have not taken the threat of the use 
of force off the table, if I were Saddam Hussein I would 
probably be sitting there saying, they may say that, but they 
do not mean it. They really do not want to use force. And 
therefore I probably can get away with more than would be the 
case if I really knew that they were prepared to use force.
    So simply saying you have not taken the threat of the use 
of force off the table does not mean anything unless your own 
actions have demonstrated that you are quite prepared to use 
force. And I do not think we have demonstrated that over the 
course of the last month.
    However it is described by Secretary Indyk today, there can 
be no question that the United States evidenced caution one way 
or the other with regard to the inspections. Whether we said do 
not do it, whether we asked questions, when the U.S. asks 
questions, it is a fairly important factor. And it seems to me 
we made it very clear, one way or another, that the United 
States was reluctant, at best, to permit inspections to go 
forward. Whether this was because if we pushed the Iraqis we 
would get to the confrontation that I think we are inevitably 
going to have to get to anyway, or whether it was simply 
because, in their way of thinking, this is a policy, I cannot 
answer that.
    I can only tell you, when you analyze what was said today, 
at the end of that train of logic--if you can call it that--we 
are at a point where I do not know what it means as to where we 
go next. And with all respect to my friend, Ambassador Murphy, 
to my right, who used it, I constantly get concerned when I 
hear people talking about we must take the diplomatic route, 
not the military route; diplomacy will work. What diplomacy?
    I mean, what is it we are going to do? Where is the 
diplomacy involved in this thing, other than, to some degree, 
bowing to the Chinese, the Russians and the French? And I think 
Mr. Woolsey was quite correct in his description of their 
motives. Maybe that is diplomacy, but I would suggest to you 
this: if you think about those three countries, what are the 
consequences of their being unhappy about pushing the 
inspections and confronting the Iraqis?
    The fact of the matter is the sanctions will stay in place 
as long as the United States is prepared to veto any resolution 
which would in fact take them away. Now, that does not mean 
that the Russians and the Chinese and the French cannot play 
games with the sanctions. But if you think about the 
consequences of our confronting those three Security Council 
members, I at least have some question as to why we have to be 
quite so gentle.
    So, to put it not too bluntly, I do not know what the 
policy is. I listened carefully. I can understand the rationale 
for being cautious. But then we come to this question of is 
this policy sort of, with all respect, the use of diplomacy for 
another 6 months, another 6 years? Where is the denouement? 
Where is it that at some point we say enough is enough and are 
prepared to move to something else? And I do not know that the 
something else is other than the use of force.
    And I do not think it means that we have to send the 82nd 
Airborne Division into downtown Baghdad. I mean there are other 
less vociferous means of using force, if that is what we have 
to do. And I am not even advocating that so much as I am saying 
what I listened to today was, with all respect, a policy that 
led me nowhere. It goes nowhere. And it is going to have to at 
some point change one way or the other. And our evidencing 
caution and concern about confrontation I suggest to you is 
sending Saddam Hussein a message which we probably do not even 
mean but which is going to encourage him to believe that we in 
fact do not want to use force.
    Thank you, sir.
    Senator Brownback. I have listened carefully today, too. 
And it just sounds like to me we are in a mess. I almost think 
it is predictable that we would be where we are today given the 
Kofi Annan agreement that was at the first of this year, the 
U.S. hesitance on using military force at the first of this 
year, the exhibited hesitancy within the administration, the 
Ohio State meeting that took place, and the weakened state of 
the presidency, that we would almost--this is a predictable 
meeting that we would have had.
    One could have looked 6 or 7 months ago and said, if this 
train of events continues to take place, and the drift in U.S. 
policy or a U.S. policy, I think as Mr. Woolsey was describing 
it, of speak loudly and carry a little stick or something to 
that effect, then you would invite Hussein to say, well, you 
are not going to inspect anymore, then. And we have not stated 
to date when we are going to push this issue or reinspection. 
We have mostly spent the time here today saying, now, are we 
articulating a public policy that is different than our private 
actions?
    And that is what the Congress has been interested in here 
of late, just to see are we going--is there something above the 
surface that is different than below the surface. And I 
continue to believe that there is something to that that is 
taking place. And we are going to continue to pursue that.
    The bottom--overarching that whole train of thought or even 
some of the comments that each of you put forward is something 
that is nagging this entire town and entire country, and I 
would suggest even the world, is the weakened state of the 
President. How much has that at play with where we are today in 
Iraq? Is that the but for a weak President, we cannot move 
forward against Iraq today or with the Middle East peace 
process or Iran or India and Pakistan or Russia or China? How 
much is that underlying the whole situation we are in today?
    Mr. Eagleburger or whoever, Mr. Woolsey?
    Mr. Eagleburger. I do not know the answer to that, Senator. 
I have to assume that to some degree it is clearly a problem, 
at least in our own minds. And I mean by that within the 
administration. If I were in the administration right now, I 
would be worried about how much I could do in a policy of a 
forceful nature--and I do not necessarily mean the use of 
force, but a positive, hard-knocking policy--in the sense that 
I would be worried about the support both of the American 
people and just as much the support from the Congress.
    Which, by the way, leads me back for just one moment to 
this question of has the Congress spoken on whether we ought to 
be prepared to use force with regard to Iraq if necessary. And 
as I recall it, there was a resolution some months ago, or some 
weeks ago at least, in fact that failed or that was not pushed.
    All I am saying is there is a responsibility here for you. 
If you are going to ask the administration to be tough, I think 
the Congress has to indicate that they are prepared to support 
that.
    Now, having said that, back to your original question. Yes, 
I am sure it makes a difference. And I am sure, here again, 
perceptions are so dangerous. If a Saddam Hussein perceives 
that the President is weak--in fact weaker than he may be--he 
may take actions which in the long run will lead to the kind of 
confrontation that if he would have had a different analysis in 
the first place he would not have done. I cannot believe that 
Saddam Hussein would have invaded Kuwait if he had known what 
he was getting into the first time around.
    Misperceptions can be a terribly dangerous factor in all of 
this. And I think in that sense at least, the weakness of the 
President, or the apparent weakness, can make a big difference, 
yes.
    Senator Brownback. Ms. Kirkpatrick?
    Ms. Kirkpatrick. Yes, Mr. Chairman. I think that Saddam 
Hussein has a known, an established tendency moreover, to 
underestimate his opposition, to underestimate his opponents. 
And I think he did that in the case of Kuwait. And I think he 
may well be doing that in the case--at least I have thought 
that he might be doing that in the case of the U.N. inspection 
regime and the sanctions regime.
    But it may also be the case that Saddam understands that 
this administration has had a habit, in any case, of 
threatening more than it--offering threats and not following 
through. It has done that repeatedly. Actually, it has done 
that from the beginning of the President's tenure, and in many 
places. And this may just be one of them, but it is a very bad 
policy and, I agree with Secretary Eagleburger, a dangerous 
policy, likely to be misunderstood. More likely than almost 
anything else to produce a confrontation and the use of force, 
however unintended.
    Senator Brownback. Mr. Woolsey?
    Mr. Woolsey. Well, even Presidents in strong positions can 
take weak decisions, such as President Bush's decision in 1991 
not to support the Shia in the South, or such as President 
Clinton's decision in 1993 to respond in such a very limited 
way to the attempt to assassinate President Bush. And even 
Presidents in weak political situations can behave strongly and 
decisively. I think of President Nixon's decisions in the fall 
of 1973, in the middle of Watergate and the Saturday night 
massacre, during the Yom Kippur War and the strategic alert.
    But I think it is much more difficult for a President in 
circumstances such as the one we see today to regain or recoup 
any ground that might have been lost by earlier mistakes. And I 
think that is the problem. It is harder, definitely harder I 
think, to dig yourself out of a hole by rallying the Congress 
and the people and foreign support and the like for forceful 
and decisive actions, especially if you must act, or be seen to 
be ready to act, alone in order to bring support around to you.
    Senator Brownback. Mr. Murphy?
    Mr. Murphy. President Saddam is one of our age's greatest 
mis-readers. He misread the resistance level in Iran to his 
invasion in 1980. He misread President Bush's ability to pull a 
coalition together. He misread not only American preparedness 
for the war, but our readiness to sacrifice, because he misread 
the likelihood of our losses. He talked of thousands of bodies 
being returned to the States, and said no American President 
would dare get into such a conflict.
    So, is he misreading President Clinton today? I do not 
know. But it would be part of a pattern. He is ill-advised. 
Very few people have access to him personally. He listens to 
very few voices, perhaps some inner ones.
    What I would hope is, remembering the January 1991 vote on 
committing U.S. forces, the approval, which was a very near 
vote--what was it, two votes, three votes--I would hope that we 
would not have that kind of public debate which would lead to 
further misreading on the part of President Saddam. I hope that 
there would be some very intensive private discussions between 
the Senate, the Congress as a whole, and the White House on the 
present state of play. It is very serious. And the odds of our 
being misread are great, based on past experience.
    Mr. Eagleburger. Senator, may I make one more comment?
    Senator Brownback. Yes.
    Mr. Eagleburger. During all of Watergate, I was sitting at 
the right hand of God, otherwise known as Henry Kissinger. And 
let me tell you, from experience through that whole period, 
when you are in the kind of situation that Nixon was in that 
messy time--and I do not say that--his condition was a lot 
worse than what is going on right now in terms of whether he 
had both feet on a banana peel or not--but what I recall so 
vividly is each time when you are that weak, you may make the 
tough decision, but the debate that goes on before you can make 
that decision, with people worrying about whether it will be 
misread by the opposition in the Congress or will be seen as an 
excuse for trying to strengthen or weaken the presidency, those 
kinds of debates are agonizing, and I can tell you they stretch 
out the decisionmaking process by a great, great deal.
    And usually, when the decision is made, it is at about a 
51/49 percentage level, where almost half the President's 
advisers are against it. So there is an inevitable caution that 
goes into this and an inevitable weakness when the decision is 
made that you in fact are going to carry it out. At least that 
was my experience with all of the Nixon period. Whether that is 
the case now or not, I do not know, but I will bet you it is.
    Senator Brownback. Senator Robb.
    Senator Robb. Thank you, Mr. Chairman. Let me begin by 
saying that I have had the privilege of working with, learning 
from, interacting with all of the members of the panel at one 
time or another, and I have a very high regard individually and 
personally for all of those assembled.
    But I must say that I respectfully note that there are 
significant differences between having current responsibilities 
and not having current responsibilities, and I say that in the 
context of one who was fully supportive from the outset of the 
actions by President Bush, in fact helped to rally support on 
my side of the aisle. I was the only member of the leadership 
at that time who took that position.
    I was proud of that action. I felt it was the right thing 
then. I have never wavered in my belief that we did the right 
thing, and I will say that just to put this issue to rest, 
because I raised it implicitly the other day when Scott Ritter 
was before us that the decision that President Bush made to 
bring the active implementation of Desert Storm to bear at the 
time that he did was in very large part supported by the 
intelligence that was then available.
    I was briefed daily. In fact, I was concerned at one point 
that we were being briefed about the next day's air strikes, 
and I thought there was absolutely no reason for Members of 
Congress, even members of the intelligence committee, to have 
that kind of information, but we did get the same real time 
intelligence and the intelligence, it turns out, was not as 
accurate as we might have hoped, and another day or two would 
have been very useful, no question about it.
    But we thought at the time, and I think that the President 
and Secretary of State and the chairman of the Joint Chiefs and 
others who were advising him, the Secretary of State, believed 
that the Red Guard was far less likely to be able to--or, the 
Republican Guard was less likely to be able to reconstitute 
itself, that the Basra box was even more devastated.
    I visited those areas while the area was still smoking, 
along what was later referred to as the highway of death. I was 
up in the northern Iraq area when the Kurdish forces were 
pushed back up into the mountains and saw all of the dying that 
was taking place there, and I agree wholeheartedly with the 
suggestion that effective foreign policy requires us to have 
credible deterrence, a strong and able military, well-led, 
well-trained, well-equipped, and it has to combine that 
credible deterrence with a demonstrated will to use force if we 
are called upon to do so.
    No quarrel with that whatsoever. I have long advocated 
that, and have in some cases been more aggressive in 
suggestions to not only this administration but previous 
administrations regarding the use of force and acceptance of 
the consequences of the use of force.
    But I must suggest at this point that we have had a very 
good critique, which comes from people who are highly regarded 
and certainly knowledgeable, but I have been unable to pick up 
any nuggets that I might use in making suggestions to the 
administration as to what they would do, what they should do 
now to address the very real challenges that face both the 
United States, the United Nations, the international community.
    And I would simply ask, and ask each one of our 
respondents, or each one of our distinguished witnesses, if 
they would be kind enough to tell me, in your best judgment, if 
you were still in office, what you would do or recommend to the 
President of the United States that he do today to enforce the 
sanctions or to enforce the inspections that have precipitated 
the hearing we are holding today.
    Secretary Eagleburger, I want to let you lead off on that.
    Mr. Eagleburger. Senator, one of the things you pointed out 
at the beginning, I have long since discovered that one of the 
great advantages of being out of office is you do not have to 
be responsible for what you say.
    Senator Robb. I am appealing to your conscience in this 
case.
    Mr. Eagleburger. Then you have directed it to the wrong 
mail box. [Laughter.]
    Mr. Eagleburger. I will give you the answer, if I were 
still in office the answer, and the rest of the panel here can 
then retreat, but I am back to my point, which is, it seems to 
me that with this last confrontation on Saddam's part, having 
first tried very hard to make the Kofi Annan thing work when 
Saddam not unexpectedly pulled it again, I frankly am prepared 
to say to you that I think that there is the need for the use 
of force, and I said it earlier.
    I do not think it has to be that you level Baghdad, but I 
am sure, unless things have changed greatly from when I was in 
office, that there are targets that Saddam would just as soon 
not lose.
    All I am saying is, to me we are the stage, and have been 
for some time, where if we have to act unilaterally, so be it. 
Whether it will work or not, I do not know. That is the danger 
of using it. But I do believe that the only solution I can see 
at this stage is, in fact, that we have got to make the threat 
of the use of force credible again, and that is, saying that we 
have to pass a U.N. Security Council resolution which will say 
that we are going to review things every 2 months does 
absolutely nothing.
    I am sorry, that is my only answer.
    Senator Robb. But in other words you are suggesting right 
now that we use force today.
    Mr. Eagleburger. If we need to.
    Senator Robb. Believing that it would accomplish the 
objective.
    Mr. Eagleburger. I am not sure it will accomplish the 
objectives.
    Senator Robb. Then what do we do on phase 2?
    Mr. Eagleburger. I have asked that question for years, and 
the fact of the matter is, this time I cannot answer it, other 
than the obvious. The obvious answer is, you have to be 
prepared to escalate.
    Now, what does that mean? I do not know.
    Senator Robb. But you used--and I am just looking at notes 
I made. You said, where does it lead, and if you implement 
phase 1, you have to have some sense of what phase 2 is going 
to be, and I am not trying to get in an argument, because I 
have a high regard for you.
    Mr. Eagleburger. I agree with your point. If I were 
listening to me my first criticism would be precisely the 
question you have raised, and I cannot answer it, because I am 
not at all sure we would be prepared, or our allies would, to 
go much further than some use of force that does not lead into 
a major confrontation.
    If we were prepared to do it, I think you have to follow it 
through, but I am not at all sure we can, but I am sure of 
this, that you have to take the risk of the use of force now, 
understanding you may have to cut it off because you cannot 
pursue it any further, and that we will therefore not have 
accomplished our objective, but sitting where we are now is it 
seems to me the worst of all possible situations.
    What I am saying to you is, some use of force. If it does 
not work, I am not prepared to say to you, we ought to go to 
World War III. I am saying we cannot stay where we are, and my 
answer to your question is, if it does not work, I do not know 
what the answer is.
    But if you do not take steps because you never know what 
the answer is, you will never do anything.
    Senator Robb. I am not going to debate.
    Ambassador Kirkpatrick.
    Ambassador Kirkpatrick. Well, I would first of all strongly 
recommend to the administration, I would share the problem with 
Congress and with the people candidly.
    Senator Robb. Let me just interject, if I may, that 
Congress illustrated a distinct lack of intestinal fortitude 
when the prospect of answering that question was raised 
recently.
    I was prepared, even though I had real reservations about 
phase 2, to support the administration, but I thought that in 
the long run--and I do not remember whether you or Mr. Woolsey 
or Mr. Eagleburger made reference to the fortuity of the Kofi 
Annan mission in terms of whether or not we were prepared to 
follow through at the time.
    Excuse me. I did not mean to interrupt.
    Ambassador Kirkpatrick. But I think that the administration 
needs to share with the Congress how they see the situation, 
what it is they are in fact doing with UNSCOM, what kind of 
pressures are they under, share with the people.
    Senator Robb. What if Congress says no, we are not going to 
go out on that limb with you?
    Ambassador Kirkpatrick. Well, if the administration is 
sharing the problem with Congress, and does not even give the 
Congress the chance to say no----
    Senator Robb. Can you advance the ball, though, if we 
demonstrate the weakness, I.e., the unwillingness of Congress 
to support the administration in this circumstance?
    Ambassador Kirkpatrick. I do not think the Congress would 
do that. I would like to say that, but I do not think that war 
necessarily follows on a frank statement of the problem. If the 
problem is that bad, then the Congress and the people need to 
know it. If it is not that bad, then the Congress and the 
people are not going to respond in a way that would drive the 
administration to war.
    First of all, I just think that the first step is leveling, 
if you will, with the Congress and the people, instead of 
engaging in this very misleading sort of explanations that do 
not explain, and that are inconsistent with the situation and 
their behavior.
    The second, I think, in dealing with such a man as Saddam 
Hussein, the administration should also be very straightforward 
about what that implies, and share that also with Congress and 
the people, and we all think together about whether there is, 
in fact, or whether there are issues here that today we regard 
as so important that we would be willing to support our 
Government taking strong measures, using force, and I think it 
puts everybody on the spot, including the Congress, including 
the public.
    I believe it would also involve us all in the problem, and 
I think we must be prepared if necessary to use force, but not 
if not necessary. I mean, perhaps we would even impress Saddam 
Hussein with our seriousness. Perhaps the administration would 
impress him with their seriousness by so doing.
    Senator Robb. There is no question in my mind that, had we 
used force we would have impressed Saddam Hussein the last time 
around that the situation, because of intervening events and 
the redeployment of forces, has changed in terms of our ability 
to provide quite the message we were going to provide.
    Mr. Woolsey, I know you have been loading up for a response 
to that question. You have had a chance to ponder it. I would 
welcome your response.
    Mr. Woolsey. I will open by saying that I would give 
essentially the same answer, with a little preface, that I gave 
six months ago before this same committee when Mr. Chalabi and 
I and others testified about a program to essentially bring 
down Saddam's regime, not a covert but an overt program.
    I want to say first of all I agree with the Secretary 
Eagleburger that the policy we have got now is not going 
anywhere. You cannot figure out what they are trying to do. It 
is reminiscent of what Churchill once said at a dinner party: 
``Sir, take this pudding, it has no theme.'' I mean, you just 
cannot figure out where this is going. They do not seem to be 
trying to accomplish anything.
    I think what is important is that Saddam, as bad as he is, 
should not be viewed in isolation. It is bad enough that he is 
working on weapons of mass destruction, and we pointed out in 
the Rumsfeld Commission Report the prospects of ballistic 
missiles and such weapons in Iraq. I will not go into that 
further here.
    But the point is that a number of the leading Sunni 
extremists in the Mideast, opponents of King Hussein in Jordan, 
for example, call Saddam the new Caliph. His calligraphy is on 
the Iraqi flag. That is roughly equivalent, given his 
antireligious background, to Stalin's having embraced the 
Russian Orthodox Church at the opening of World War II after 
having blown up cathedrals.
    Saddam is wrapping himself in the cloak of Sunni extremism, 
and people like bin Laden and, I think, other people with a lot 
of money in the Mideast are turning to him. So by being weak 
vis-a-vis Saddam we are also making ourselves weaker vis-a-vis 
the terrorist threats by the bin Ladens of the world.
    I think that a strong and confident and decisive American 
President tends to create support both within the country and 
among friends and allies, and I would suggest that things have 
certainly now gone to the point--I thought they had in March, 
but I certainly think they have now--where this set of 
proposals that Mr. Chalabi and I and Richard Perle and Bill 
Kristol and a number of people have recommended ought to be 
adopted.
    He ought to be declared a war criminal. We ought to declare 
a no-fly zone over the entire country. That means reinforcing 
our air forces in the Mideast. We ought to support the Kurds in 
the north and the Shia in the south from the air if they rebel 
against him.
    This would entail, the first time we did it, taking out the 
air defenses in Iraq so our pilots would not be at risk, but 
this is not something that is beyond our capability.
    We can broadcast into Iraq. We can delegitimize the Iraqi 
regime.
    Senator Robb. I can agree with you on every point. Do you 
think the Congress will support it?
    Mr. Woolsey. If you have a strong and decisive President 
pointing out the links between this threat, ballistic missile 
threats to the United States in the future and terrorist 
threats from the Mideast to the United States today, I think 
yes, but it will take leadership and effort. It is not a slam 
dunk, but I think it can be done.
    Senator Brownback. Can we wrap this up with Mr. Murphy 
here?
    Senator Robb. Yes. There is a lot more I would like to say 
and would like to engage, because we have got some fascinating 
and informed witnesses, but Ambassador Murphy really has 
responded in what I thought was a very thoughtful article 
sometime recently in the Post that there was a point that you 
made about effective long-term monitoring of weapons as 
controlling the financial assets and effectively monitoring the 
long-term control, but how do you effectively, or how do you 
define effectively controlling the long-term monitoring program 
of its weapons?
    Mr. Ambassador.
    Mr. Murphy. Well, you have UNSCOM running--we have been 
discussing today the reinstatement of UNSCOM's full operation. 
UNSCOM would be running the long-term monitoring, as I have 
always understood it.
    Senator Robb. They are running it now, and the suggestion 
is that this is no longer effective.
    Mr. Murphy. No longer effective in the sense that, well, 
they are not able to operate today. How do you mean?
    Senator Robb. What I was attempting to do is get a 
definition of effective, because that is really what we are 
talking about.
    If our policy is simply containment of the threat and 
willingness to use force if he attempts to export either 
directly or indirectly weapons of mass destruction, then it is 
working, but if this policy is not sufficient, then there is 
more to it. I am asking.
    Mr. Murphy. Long-term monitoring involves use of the 
cameras, the sensors, all of the equipment that has been put in 
place.
    Senator Robb. In other words, what we are doing now is 
effective?
    Mr. Murphy. Nothing is fully effective, Senator, with 
Saddam Hussein. This is not the last, this is the latest 
confrontation with Saddam. As long as he is around, we will 
continue to have confrontations.
    Senator Robb. I could not agree with you more.
    Mr. Murphy. Let me add one point on what the others have 
talked about. I do not think anything Mr. Woolsey said could do 
harm, the specific extra pressures on Iraq. How much it will 
actually accomplish, if we get it launched; time will tell.
    When I speak of the diplomatic option, I would take issue 
with Secretary Eagleburger on his saying it is meaningless to 
talk about suspending the sanctions review. He asks what does 
it mean to Saddam Hussein. The meaning, the target, the 
audience is not Saddam Hussein. The audience is Paris and 
Russia. Our message is: ``You (French and Russians) are never 
going to get your oil contracts (with Iraq) operating, never.'' 
They are the ones whom we have to energize to get to Saddam 
Hussein.
    He is not taking it seriously in that sense, yes, I agree 
with Secretary Eagleburger. But the targets for our pressure 
are Paris, Moscow, and Beijing, a lesser target.
    Senator Robb. Mr. Chairman, I apologize. I think it has 
been a constructive dialog, and it is useful to raise the 
public consciousness that we have got some very difficult and 
occasionally seemingly intractable issues to deal with.
    Senator Brownback. I come back to my earlier point when I 
started with the questions, which was that we are in a mess 
because of the situation we find ourselves today, the 
administration policy that is difficult to follow, an 
inability, either perceived or actual, that the United States 
either will not or cannot act, and that perceived weakness 
being provocative to others abroad.
    I think you raise interesting points about, would the 
Congress respond if the administration came up here today and 
said, OK, we have got a problem with Iraq, and we want to use 
force, because of the weakness of the administration, that we 
would have difficulty responding.
    I know 6, 7 months ago, when Mr. Woolsey and Mr. Chalabi 
came up in front of this committee, I thought they presented a 
very good proposal of a long-term tightening of the noose 
around Saddam Hussein to the point that we could do that policy 
at that point in time, rather than just go in, drop a few 
bombs, and then say, OK, we did our deed and that is it. Let us 
project a long-term policy.
    But the difficulty would be for the President today, in the 
President's condition, to get this Congress to do something, 
and that is being perceived in many places around the world, 
not the least of which is in Iraq, and I hope we can work to 
rectify that problem quickly, because it hurts the United 
States, and I think we are in a very perilous position today, 
not only in Iraq on Iraqi policy, but broad-scope around the 
world in many policy fields and foreign policy fields.
    We have held you here longer than I intended to. I 
appreciate deeply your patience and your commitment and what-
all you have done for your country. Thank you very much.
    The committee is adjourned.
    [Whereupon, at 4:20 p.m., the subcommittee adjourned.]

                                 <all>
</pre></body></html>
